App. 1
In the
United States Court of Appeals
for the Seventh Circuit
-----------------------------------------------------------------------

No. 19-2054
UNITED STATES OF AMERICA,
Plaintiff-Appellee,
v.
TERRILL A. RICKMON, SR.,
Defendant-Appellant.
-----------------------------------------------------------------------

Appeal from the United States District Court
for the Central District of Illinois,
No. 18-cr-10046, James E. Shadid, District Judge.
-----------------------------------------------------------------------

ARGUED FEBRUARY 19, 2020 – DECIDED MARCH 11, 2020.
-----------------------------------------------------------------------

Before WOOD, Chief Judge, and FLAUM and RIPPLE, Circuit Judges.
FLAUM, Circuit Judge. One hundred police departments use a surveillance network of GPS-enabled
acoustic sensors called ShotSpotter to identify gunﬁre,
quickly triangulate its location, and then direct ofﬁcers
to it. As a matter of ﬁrst impression, this case requires
us to consider whether law enforcement may constitutionally stop a vehicle because, among other articulable facts, it was emerging from the source of a

App. 2
ShotSpotter alert. The district court held that the totality of the circumstances provided the ofﬁcer responding to the scene with reasonable suspicion of
criminal activity to justify the stop. We afﬁrm.
I.

Background.

ShotSpotter is a surveillance system that uses sophisticated microphones to record gunshots in a speciﬁc area. After a device detects the sound of gunﬁre, it
relays the audio ﬁle to a server in California, where an
individual determines whether the sound is a shot.
When that individual conﬁrms the sound is a gunshot,
ShotSpotter sends it back to the local police department.
In the very early morning of July 29, 2018, Travis
Ellefritz – an ofﬁcer with the Peoria Police Department
– was patrolling the city in his squad car. At 4:40:02
a.m., the Department’s ShotSpotter system reported
two gunshots coming from 2203 North Ellis Street.
When Ofﬁcer Ellefritz received the ShotSpotter alert
on his computer, he immediately started driving toward the 2200 block of North Ellis. On his way, Ofﬁcer
Ellefritz heard the police dispatcher broadcast the
ShotSpotter alert he had just received. He then heard
the dispatcher report a second ShotSpotter alert of
three more shots ﬁred.
Additionally, the dispatcher stated: “Cars en route
to Ellis. There are several cars leaving but seen going
northbound on McClure.” The dispatcher also reported
a “black male on foot who ran northbound on McClure.”

App. 3
As Ofﬁcer Ellefritz approached the location, he
switched his car lights off, turning left from McClure
Avenue onto North Ellis Street. He was the ﬁrst ofﬁcer
at the scene. Shortly thereafter, Ofﬁcer Ellefritz saw a
car’s headlights down the road and noticed it was leaving North Ellis to come his way. This was the only vehicle Ofﬁcer Ellefritz observed on the street.
Upon seeing the headlights, Ofﬁcer Ellefritz activated his emergency lights and veered his vehicle into
the lane of oncoming trafﬁc. As the approaching car
slowed, Ofﬁcer Ellefritz feared for a second that it was
trying to get away from him, so he shouted “stop” as he
exited his vehicle at 4:45:23 a.m. Within seconds of this
command, the car stopped next to the left bumper of
Ofﬁcer Ellefritz’s cruiser.1 The car’s occupants pointed
backward, in the direction from where they came, yelling: “They are down there! They are down there!” Ofﬁcer Ellefritz looked that way and observed a crowd of
about 15-20 people at the street’s dead end, approximately 300 feet from him.
Ofﬁcer Ellefritz kept his ﬁrearm drawn. He saw
the defendant, Terrill Rickmon, in the passenger seat.
The driver was the owner of the car. Both men kept
their hands up until backup arrived. At that time,
Rickmon informed the ofﬁcers that someone had shot
him in the leg. (Obviously, Ofﬁcer Ellefritz did not
know Rickmon was wounded when Ellefritz originally
1

The other car subsequently rolled back a few feet to a complete halt. Because this occurred after Ofﬁcer Ellefritz already
commanded the stop, it does not factor into our analysis.

App. 4
stopped the car.) With the driver’s consent, Ofﬁcer Ellefritz searched the automobile and found a nine-millimeter handgun under the passenger seat where
Rickmon had been sitting.
Because of his criminal history, a federal grand
jury indicted Rickmon for possession of a ﬁrearm by a
felon in violation of 18 U.S.C. § 922(g)(1). Rickmon
moved pro se to suppress the ﬁrearm found by Ofﬁcer
Ellefritz, contending that the Peoria Police Department did not have records showing how many
ShotSpotter reports were “false positive[s]” and that
other systems in cities across the country were inaccurate and unreliable.
On December 21, 2018, the district court presided
over an evidentiary hearing regarding Rickmon’s motion to suppress.2 Ofﬁcer Ellefritz testiﬁed that, before
2

At certain points in this case, Rickmon has somewhat taken
issue with ShotSpotter’s reliability. A police department witness
testiﬁed that, in general, SpotShotter validates whether a sound
is a gunshot within seconds; however, in these speciﬁc circumstances, the witness was unable to say how long that process took.
The district court also received evidence that SpotShotter is not
always accurate and that ofﬁcers may not solely rely on it to locate
gunﬁre. As Rickmon points out, the record here does not demonstrate how often the Peoria Police Department received incorrect
ShotSpotter reports or anything else attesting to the reliability of
the system. Still, the witness was subject to cross-examination
about ShotSpotter’s reliability. See Florida v. Harris, 568 U.S.
237, 247 (2013) (observing that a defendant can challenge the reliability of certain evidence during cross-examination); United
States v. Bonds, 922 F.3d 343, 345–46 (7th Cir. 2019) (similar).
Rickmon, for his part, declined to further challenge ShotSpotter’s
adequacy. Cf. Harris, 568 U.S. at 248–49 (forfeiting similar argument). We therefore take his argument as based on reasonable

App. 5
the stop, he had no idea how many people were in the
car or who was in the car. Furthermore, he stated that
he had no reason to suspect that any weapons used in
the shooting were in this car. He explained that the occupants were not attempting to ﬂee, they complied
with his commands, and they neither moved suspiciously nor gestured threateningly. In sum, there was
nothing particularly unusual about this car, except for
the fact that it was leaving the area of the gunﬁre.
Following the hearing, the district court denied
Rickmon’s motion, ruling that the trafﬁc stop was objectively reasonable based on the totality of the circumstances. The court reasoned:
The short lapse of time between the dispatch
and the stop, the 911 call of vehicles leaving
the area, this vehicle being the only one Ellefritz saw in close proximity, less than 300 feet
from where the shots were reported to have
come from, the vehicle driving away from the
area where shots reportedly originated, and
upon seeing the patrol car stopping and then
reversing slightly and moving away from Ellefritz, and the driver yelling that “they are still
down there,” support the initial stop of that
suspicion and need not reach the reliability of ShotSpotter. In
some future decision, we may have to determine ShotSpotter’s reliability where a single alert turns out to be the only articulable
fact in the totality of the circumstances. See, e.g., State v. Hill, 851
N.W.2d 670, 691 (Neb. 2014) (holding that ShotSpotter technology is reliable). But, in any event, this is not that case, given that
911 calls corroborated the ShotSpotter reports here and Rickmon
himself was in the system’s coverage zone. We express no further
opinion on the matter.

App. 6
vehicle, if for no other reason than to inquire
if they were witnesses to the shooting or to
learn if they had been involved in the shooting.
Rickmon conditionally pleaded guilty to the onecount indictment and reserved his right to appeal the
district court’s denial of his motion to suppress. See
Fed. R. Crim. P. 11(a)(2). On May 31, 2019, the district
court sentenced Rickmon to 75 months in prison and
accordingly entered judgment. This timely appeal ensued.
II.

Discussion.

Under the Fourth Amendment, police “ofﬁcers
may conduct a brief investigatory stop,” sometimes referred to as a Terry stop, “if they reasonably suspect
that an individual has committed or is about to commit
a crime.” Torry v. City of Chicago, 932 F.3d 579, 587 (7th
Cir. 2019) (citing Terry v. Ohio, 392 U.S. 1, 20–22
(1968)). “Reasonable suspicion requires speciﬁc and articulable facts which, taken together with rational inferences from those facts, suggest criminal activity.”
United States v. Lewis, 920 F.3d 483, 493 (7th Cir. 2019)
(citation and internal quotation marks omitted). We review the objective reasonableness of a Terry stop de
novo. See United States v. Watson, 900 F.3d 892, 895
(7th Cir. 2018).
“While ‘inarticulate hunches’ are not enough, ‘reasonable suspicion is a lower threshold than probable
cause’ and ‘considerably less than preponderance of

App. 7
the evidence.’ ” United States v. Adair, 925 F.3d 931,
935 (7th Cir. 2019) (citations omitted). Our task is to
objectively examine the “totality of the circumstances
known to the ofﬁcer at the time of the stop, including
the experience of the ofﬁcer and the behavior and characteristics of the suspect.” Id. (citation omitted). We are
mindful that “[r]easonable suspicion is a ‘commonsense, nontechnical’ concept that deals with ‘the
factual and practical considerations of everyday life on
which reasonable and prudent men, not legal technicians, act.’ ” United States v. Wanjiku, 919 F.3d 472, 488
(7th Cir. 2019) (citation omitted).
Rickmon argues that ShotSpotter, standing on its
own, should not allow police ofﬁcers to stop a vehicle in
the immediate vicinity of a gunﬁre report without any
individualized suspicion of that vehicle. We generally
agree with this proposition. Indeed, we question
whether a single ShotSpotter alert would amount to
reasonable suspicion. But we disagree with Rickmon’s
conclusion that, in this case, the ofﬁcer had only an
“unparticular hunch” – rather than “speciﬁc and articulable facts” – that the car connected back to the
crimes. As the district court found, the totality of the
circumstances establishes the ofﬁcer stopped the car
for more reasons than just its location in ShotSpotter’s
coverage zone.
Rickmon is certainly correct that “[a] mere suspicion of illegal activity at a particular place is not
enough to transfer that suspicion to anyone who leaves
that property.” United States v. Bohman, 683 F.3d 861,
864 (7th Cir. 2012); see also Ybarra v. Illinois, 444 U.S.

App. 8
85, 91 (1979) (“[A] person’s mere propinquity to others
independently suspected of criminal activity does not,
without more, give rise to probable cause to search that
person.”).
He likens his case to Bohman; however, that decision is distinguishable. As we have explained previously, “[i]n Bohman, police stopped a car exiting
property that ofﬁcers suspected of housing a methamphetamine lab. That suspicion resulted from a tip they
had received, but when police stopped the car, they had
not yet corroborated the tip in any way.” United States
v. Richards, 719 F.3d 746, 757 (7th Cir. 2013) (citation
omitted). We “found no reasonable suspicion for the
stop because the only information pointing to criminal
activity was the defendant’s emergence from property
that an uncorroborated tip accused of housing a meth
lab. That alone was insufﬁcient.” Id. (citation omitted).
Rickmon asserts that the sergeant in Bohman
had, in fact, more suspicion than Ofﬁcer Ellefritz did
here. He reasons that ShotSpotter is less reliable than
the informant there (or a witness in any other case)
because it “does not provide any speciﬁc information
about suspects or vehicles, it simply records sounds.”
Again, we can assume for the sake of argument that
Ofﬁcer Ellefritz needed “something extra” beyond the
ShotSpotter report. But Rickmon mistakenly claims
that the only other information the ofﬁcer had when he
made the stop was the radio dispatch. This was not the
only other information the ofﬁcer had to go on, and that
is why Rickmon is unlike the defendant in Bohman.

App. 9
In cases where an ofﬁcer stops a car departing a
suspected crime scene, we have considered a number
of circumstances relevant to our reasonable suspicion
analysis: (1) the reliability of any reports to police; (2)
the dangerousness of the crime; (3) the temporal and
physical proximity of the stop to the crime; (4) any description of the vehicle and relevant trafﬁc; and (5) the
ofﬁcer’s (or potentially even the department’s) experience with criminal activity in that area. See United
States v. Burgess, 759 F.3d 708, 710–11 (7th Cir. 2014);
United States v. Brewer, 561 F.3d 676, 679 (7th Cir.
2009).3 We now apply these factors to Rickmon’s case.
First, and as Rickmon concedes, Ofﬁcer Ellefritz
received two ShotSpotter alerts and two dispatches reporting a shooting on North Ellis. The details gleaned
from the 911 calls that the dispatcher passed on to
Officer Ellefritz highlight that he did not merely act
on uncorroborated information. Granted, we take
3

It is clear from our caselaw that a car’s vicinity to a suspected crime scene is rarely, if ever, the only articulable fact justifying a trafﬁc stop. Moreover, Rickmon’s apparent bright-line
rule that an ofﬁcer must always identify a suspect or vehicle by
matching real-time observation with a previous report is anathema to our evaluation of the totality of the circumstances. See
Harris, 568 U.S. at 245 (rejecting a bright-line rule in the probable cause context because “[a] gap as to any one matter . . . should
not sink the State’s case; rather, that ‘deﬁciency . . . may be compensated for, in determining the overall reliability of a tip, by a
strong showing as to . . . other indicia of reliability.’ ” (quoting Illinois v. Gates, 462 U.S. 213, 233 (1983))); see also Brewer, 561
F.3d at 677-79 (concluding a trafﬁc stop was reasonable even
though, as in this case, the ofﬁcer had no description of the vehicle
or its occupants but did notice that it was the sole vehicle passing
through the area’s only exit in the middle of the night).

App. 10
Rickmon’s point that ShotSpotter is not comparable to
an eyewitness or known informant; instead, we conclude it is analogous to an anonymous tipster. So, what
Ofﬁcer Ellefritz ends up with is an anonymous tip from
ShotSpotter that the 911 calls then independently conﬁrmed. “Corroboration from multiple sources describing the general area and nature of the same crime
exceeds the single police tip that alone can supply reasonable suspicion for a stop.” Burgess, 759 F.3d at 710;
see also Florida v. J.L., 529 U.S. 266, 270–71 (2000)
(similar).
Here, the radio dispatches that Ofﬁcer Ellefritz
listened to on his way to the site of the shooting corroborated the ShotSpotter alerts by relaying accounts of
cars leaving the scene and an individual running away
from the shooting.4 And “[m]ultiple . . . report[s] [of ]
4

The government encourages us to rely on a later 911 call
from an individual at 2227 North Ellis reporting “a bunch of gunﬁre” and ﬁve cars moving north as a circumstance relevant to our
reasonable suspicion analysis. But the police dispatcher did not
convey this additional information to any of the ofﬁcers en route.
We need not rely on this fact to resolve this appeal because it does
not tip the scales one way or the other. Ofﬁcer Ellefritz was on
ﬁrm footing when he stopped Rickmon’s car without these details.
Even if this 911 call was decisive, however, it cannot justify
the stop anyway because Ofﬁcer Ellefritz did not know about it.
See Brewer, 561 F.3d at 677-78 (reasoning that facts learned after a trafﬁc stop cannot support it post hoc) (citations omitted).
Ofﬁcer Ellefritz must have been able to articulate his suspicion of
Rickmon’s car when he stopped it and he cannot now articulate
facts that were then unavailable to him. See United States v.
Wilbourn, 799 F.3d 900, 909 (7th Cir. 2015). “The fact that the
911 operator turned out, after the fact, to have additional information which would have given the arresting ofﬁcers reasonable

App. 11
shots ﬁred in the same general area, creat[es] heightened suspicion of a serious crime. . . .” Id. at 711. Ofﬁcer Ellefritz therefore had a good idea of what to be
on the lookout for when he arrived.
Second, Ofﬁcer Ellefritz was responding to an
emergency report of shots ﬁred, not one of general
criminality. We have repeatedly emphasized in our decisions that the inherent danger of gun violence sets
shootings apart from other criminal activity. See, e.g.,
id. at 710–11 (distinguishing Bohman from Brewer because of the apparent lack of immediate danger in
suspicion cannot retroactively make their actions objectively reasonable.” United States v. Colon, 250 F.3d 130, 138 (2d Cir. 2001)
(citation omitted).
The government maintains that we should contemplate the
“collective knowledge” of all law enforcement personnel, including
the police dispatcher, who were in communication regarding the
investigation. But the government admits that the dispatcher did
not broadcast this 911 call to the responding ofﬁcers. And “imputed knowledge does not trump actual knowledge. . . .” United
States v. Hicks, 531 F.3d 555, 560 (7th Cir. 2008) (citation omitted). By conceding that the dispatcher did not transmit the contents of the 911 call to Ofﬁcer Ellefritz, the government effectively
rebutted any presumption of communication (and thus in favor of
collective knowledge) between those two individuals. See United
States v. Brown, 496 F.3d 1070, 1071 n.2 (10th Cir. 2007) (citing
United States v. Shareef, 100 F.3d 1491, 1503–04 (10th Cir. 1996)).
We conclude that the government cannot justify an investigative stop based on information that a 911 caller provides to a
dispatcher who does not, in turn, notify the police on the scene.
See Colon, 250 F.3d at 137 (“Imputing information known only to
the civilian operator and not conveyed to the dispatching and then
arresting officers would extend the doctrine beyond its current
jurisprudential parameters and vitiate the privacy safeguards of
the Fourth Amendment. . . .”).

App. 12
Bohman). In Burgess, another case involving a shooting, we underscored that “the threat to public safety
was serious, and the ofﬁcers had to assume that it was
continuing in process.” Id. at 711; see also Brewer, 561
F.3d at 679 (explaining the police “had a compelling
reason to ask questions of the driver or passenger of
the sole vehicle departing from a building complex in
which shots had been ﬁred (and not for the ﬁrst time),
in order to protect the police ofﬁcers who were about to
enter the complex.”).
Indeed, an emergency report “can support an ofﬁcer’s reasonable suspicion with less objective evidence to corroborate the report.” United States v.
Williams, 731 F.3d 678, 684 (7th Cir. 2013) (citing
United States v. Hicks, 531 F.3d 555, 559–60 (7th Cir.
2008)). In Williams, we determined that an anonymous
911 call justiﬁed a stop where “there was a large group
of people being loud and waving guns in a location at
which violent crime and drug activity is regularly reported.” Id. This rule requiring less substantiation before making a stop based on an emergency report
enables the police ofﬁcer “to obtain for his own safety
and that of the other ofﬁcers as much information
about the situation in the [area] as he could before they
entered it in the dark.” Brewer, 561 F.3d at 678.
Third, Ofﬁcer Ellefritz encountered Rickmon’s vehicle on the same block of the shooting ﬁve-and-a-half
minutes after he received reports of shots ﬁred. Rickmon claims that no criminal in their right mind would
stick around a crime scene for that long. But we are not
so sure. We know the shooting continued after the

App. 13
initial ShotSpotter alert. Moreover, this time frame is
consistent with others in our caselaw. See, e.g., Burgess,
759 F.3d at 709 (“Just over four minutes had passed
from the initial dispatch about gunshots to the ofﬁcers’
report that Burgess was in custody.”); Brewer, 561 F.3d
at 677 (noting that ofﬁcers observed the suspicious car
minutes after the original radio dispatch). Common
sense counsels that a person may take minutes rather
than seconds to ﬂee for any number of reasons, including the destruction of evidence, an injury sustained in
the shooting, or a need to hide in place. As both a matter of fact and law, then, ﬁve-and-a-half minutes is not
unduly long.
Rickmon’s vehicle was also driving away from the
site of the shooting on the only street leading from it.
See United States v. Street, 917 F.3d 586, 594 (7th Cir.
2019) (“The totality of circumstances, however, may
provide additional and reasonable limits, particularly
with respect to place and time, so as to allow a stop
based on a fairly general description.”). Considering
the facts here, it was a “natural surmise that whoever
ﬁred the shots” would be in the vehicle that Ofﬁcer
Ellefritz stopped. Brewer, 561 F.3d at 678; see also Burgess, 759 F.3d at 711 (stating that “the ofﬁcers had . . .
a street location to zero in on” when a car “pass[ed]
them (going the other way and out of the area)” so “one
might reasonably expect the shooter’s vehicle” to be
that one). Based on these facts, it was rational for Ofﬁcer Ellefritz to infer that Rickmon’s car participated
in the gunﬁght because it was the only vehicle on the
street of the shooting.

App. 14
Fourth, Ofﬁcer Ellefritz did not have the description of any vehicle; however, it was 4:45 a.m. and there
was no other trafﬁc. Again, in such a scenario, “[t]he
hour reinforce[s] the suspicion” because we realistically expect few people on the road at that time.
Brewer, 561 F.3d at 678; see also Burgess, 759 F.3d at
711 (“And because of the light trafﬁc late on that Sunday night, there was a good chance that seeing Burgess’s car at that time and place was more than a
coincidence.”). Hence, it was reasonable – not random
– to pull Rickmon over. See Brewer, 561 F.3d at 679
(ruling that the responding ofﬁcer “was not acting randomly in deciding that the only car emerging from the
apartment complex moments after he heard shots from
within it should be intercepted”).
Fifth, and ﬁnally, Ofﬁcer Ellefritz knew that he
was heading toward a block that he once patrolled and
where in the past he had responded to shots-ﬁred calls.
Indeed, he estimated that he responded to these couple
blocks once per night. To be fair, there was no evidence
in the record that this was a so-called “high crime
area.” Instead, Ofﬁce Ellefritz testiﬁed that he had personal knowledge of criminal activity in that part of Peoria. He was of course right to “draw on his own
experience and specialized training to make inferences
from and deductions about the cumulative information
available . . . that might well elude an untrained person.” United States v. Hill, 818 F.3d 289, 294 (7th Cir.
2016) (quoting United States v. Arvizu, 534 U.S. 266,
273 (2002)); see also Brewer, 561 F.3d at 679 (bearing
in mind that the ofﬁcer “had three years’ experience

App. 15
with criminal activity in the particular housing complex . . . ”). Simply put, we have never required ofﬁcers
“to ignore the relevant characteristics of a location in
determining whether the circumstances are sufﬁciently suspicious to warrant further investigation.” Illinois v. Wardlow, 528 U.S. 119, 124 (2000).
Altogether, the circumstances here – the reliability of the police reports, the dangerousness of the
crime, the stop’s temporal and physical proximity to
the shots, the light trafﬁc late at night, and the ofﬁcer’s
experience with gun violence in that area – provided
reasonable suspicion to stop Rickmon’s vehicle. As in
similar past challenges to automobile seizures, “there
is ‘far more in this case . . . than . . . mere physical proximity’ to the criminal activity.” Richards, 719 F.3d at
758 (quoting United States v. Burrell, 963 F.2d 976, 987
(7th Cir. 1992)); see also Burgess, 759 F.3d at 710. Multiple circumstances separate Rickmon’s case from others. In isolation, any one of those circumstances might
not be sufﬁcient.5 But viewed collectively, they start to
seem suspicious. “In such a situation, it is reasonable
for police to act quickly lest they lose the only opportunity they may have to solve a recent violent crime or
to interrupt an advancing one.” Burgess, 759 F.3d at
711.

5

Even then, “Terry accepts the risk that ofﬁcers may stop
innocent people.” Wardlow, 528 U.S. at 126.

App. 16
III.

Conclusion.

For the reasons stated above, the district court appropriately denied Rickmon’s motion to suppress. We
therefore AFFIRM Rickmon’s resulting conviction and
sentence.

WOOD, Chief Judge, dissenting.
If the Fourth Amendment stands for anything, it
stands for the proposition that the police cannot seize
anyone without adequate, individualized reason to do
so. Sometimes that reason must provide probable
cause for the seizure; sometimes it is enough that the
police have reasonable suspicion pointing to the person
detained. But, with the exception of general roadblocks
that satisfy the standards articulated in City of Indianapolis v. Edmond, 531 U.S. 32 (2000) – a situation
that all agree is not present in the case before us – the
police cannot simply force every person or every car to
stop, in the hopes that they might uncover evidence of
a crime. That would amount to a general warrant, precisely the evil that the drafters of the Fourth Amendment wanted to avoid.
The question before us in this case is whether Ofﬁcer Travis Ellefritz, of the Peoria (Illinois) Police Department, had the requisite individualized suspicion to
order the car in which defendant Terrill Rickmon was
riding to stop. Ellefritz was responding to two different
reports he received around 4:40 a.m. of gunshots having been ﬁred in the immediate area of the 2200 block

App. 17
of North Ellis Street, within the city limits of Peoria.
North Ellis is a two-block street that dead-ends at its
south end, intersects with Archer Street in the middle,
and “T’s” into West McClure Avenue at its north end.
Top to bottom, North Ellis is a little more than 430
yards (four football ﬁelds plus a little).
The majority recognizes that the validity of the
stop rises or falls based only on the knowledge Ellefritz
had at the time he stopped the car; no later-acquired
facts can retroactively save it. Here is what he knew,
and how he knew it:
•

The ShotSpotter system in his squad car registered multiple gunshots at 2203 North Ellis
around 4:40 a.m. on July 29, 2018.

•

That address is near the south end of the
street, where it dead-ends.

•

The police dispatcher announced two “shots
ﬁred” alerts detected by ShotSpotter over the
radio.

•

The police dispatcher informed Ellefritz that
a 911 call had come in reporting gunﬁre on
North Ellis.

•

The 911 caller also said that there were several cars leaving the location and one black
male on foot.

•

Between three and a half and ﬁve minutes after receiving the initial ShotSpotter dispatch,
Ellefritz reached North Ellis Street.

App. 18
•

As he drove south on the street, he saw a car
turn from the east side of the street and proceed northbound. He saw no other cars on the
road.

Based on that information, Ellefritz decided to stop the
car. He turned on his emergency lights, maneuvered
his car to block the northbound land, and the car began
to stop. It came to a complete halt when Ellefritz yelled
at the occupants to stop and stay where they were.
The only thing that distinguished the car Ellefritz
chose to stop was that it existed, and it was the only
car on the street at that early hour of the morning.
None of the information he had received even hinted
at the shooter’s car’s make, color, age, style, or anything
else. Indeed, though I do not rely on this subjective fact,
Ellefritz frankly admitted that he would have stopped
literally any car he saw on North Ellis based on the
information he had.
It appears that it is illegal for a person to discharge a gun within the corporate limits of Peoria,
other than at a licensed shooting gallery, gun club, or
riﬂe club. Peoria City Ordinance, sec. 20-161(a). It was
thus reasonable for Ellefritz to think that the discharge of a gun was unauthorized, despite all the
changes in gun regulation that have followed the Supreme Court’s decision in District of Columbia v. Heller,
554 U.S. 570 (2008). But virtually nothing connected
those sounds with the car he decided to stop, or indeed
with any car at all – it was just as likely that the

App. 19
shooter had retreated into a nearby house or ﬂed on
foot (as the 911 caller indicated).
My colleagues are willing to assume that because,
some ﬁve minutes after the shots were heard, this was
the only car on North Ellis, the people in it must have
been associated with the shots. But that is pure speculation. July 29 fell on a Sunday in 2018. Nonetheless,
some workplaces operate on a seven-day week, and
early-morning shifts are by no means unheard-of:
think of production workers, grocery stockers, transportation workers, bakers, and baristas, to name just a
few. Or the driver might have needed to go from Peoria
to Chicago, or Springﬁeld, or St. Louis, for social reasons or a business appointment and wanted an early
start. Or maybe the driver was at a late party. The time
of day, and the fact that the road was largely empty, do
not add up to anything.
The 911 caller reported a man running away from
the area where the noises were heard, but Ellefritz did
not stop a running man. And the street is so short –
about a quarter of a mile (one lap around a track) –
that the runner would have been long gone before Ellefritz pulled up in his car. Again, one could speculate
that the shooter stayed around and then got into the
car that Ellefritz stopped. But that speculation is utterly unsupported. It was equally plausible to speculate that (a) the shooter ran across the grass to the
parking lot south of the dead end and quickly slipped
out of sight, or (b) the shooter took refuge in one of the
surrounding houses, or (c) the shooter crossed over

App. 20
Archer Street and rendezvoused with his ride a safe
block away.
My colleagues also stress that Ellefritz believed
that he was responding to an emergency, because gunshots always connote emergency. Perhaps they do. But
how much does this prove? Would it have entitled the
police to force their way into every house on North Ellis, to make sure that the shooter was not threatening
anyone in those houses? Would it have allowed the police to stop any and every car they saw within 1,000
feet of the point that ShotSpotter identiﬁed? My answer to both those questions is no. And I cannot agree
with my colleagues that a single car proceeding north,
at the speed limit, signals an emergency. There was
some talk in the district court about North Ellis being
part of a “high crime” area, but my colleagues admit
that “there was no evidence in the record that this was
a so-called ‘high crime area.’“ Ante at 13.
Finally, my colleagues worry that compliance with
the Fourth Amendment here might have allowed a culpable person to avoid being arrested. But there are two
responses to this point. First, the requirement that the
police must have either probable cause or at least reasonable suspicion before arresting someone will, in
some instances, hamper their activities. That is exactly
what happened in Ybarra v. Illinois, 444 U.S. 85 (1979),
when the Supreme Court held constitutionally impermissible a search warrant that allowed the police to
search, pat down, and seize any of the patrons of a
small tavern. It did so despite the fact that the search
revealed that Ventura Ybarra possessed heroin.

App. 21
Second, Rickmon’s offense was being a felon in possession of a ﬁrearm. To this day, no one has suggested that
he was the shooter. If anything, the fact that his leg
had been wounded by a bullet indicated (after the fact)
that he was a victim of the shooter.
I would hold that Rickmon’s motion to suppress
the evidence should have been granted, and I would
remand for further proceedings. I therefore respectfully dissent.

App. 22
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF ILLINOIS
UNITED STATES
OF AMERICA,

)
)
)
Plaintiff,
) Case No. 18-cr-10046
v.
)
TERRILL A. RICKMON, SR. )
)
Defendant.
)
ORDER
(Filed Dec. 27, 2018)
Defendant, Terrill A. Rickmon, Sr., ﬁled a Motion
(Doc. 20) to Suppress Evidence. The United States ﬁled
a Response (Doc. 24), and an evidentiary hearing was
held on December 21, 2018. For the reasons set forth
below, the Motion is DENIED.
FACTS
On July 29, 2018, Ofﬁcer Travis Ellefritz (“Ellefritz”) and other Peoria Police Ofﬁcers were dispatched
to the area of 2203 North Ellis Street in Peoria, Illinois.
Ellis Street comes to a dead end at two points, separated by the City/County Health Department.
The initial dispatch was in response to alerts from
ShotSpotter, a gunshot detection system utilized by the
City of Peoria. Ellefritz received the ShotSpotter notice
through a screen in his squad car that alerts when

App. 23
shots are ﬁred. He was in a marked squad car. While
en route to 2203 North Ellis Street, dispatch advised
of another ShotSpotter alert at the same location. Additional information from a 911 call reported several
cars leaving the area going northbound on McClure.
Ellefritz approached the area in his patrol car
from McClure Street turning left from McClure onto
North Ellis. His vehicle dash cam was on. As Ellefritz
was southbound on North Ellis, he observed the headlights of a vehicle heading northbound from the dead
end of Ellis, in front of the area where both ShotSpotter alerts indicated the shots came from. The vehicle
had turned right on to Ellis Street before heading
north on Ellis. Ellefritz did not see any other cars. Ellefritz turned on his headlights and overhead emergency
lights and activated his spot light on the approaching
vehicle as well. Ellefritz was the ﬁrst vehicle on the
scene. It took approximately three and one and a half
minutes from dispatch to the stop of the vehicle. Ellefritz saw an African American male driver, an African
American male front passenger, which turned out to be
Defendant Rickmon, and an African American female
in the back seat. Ellefritz stopped his patrol car in
front of 2222 North Ellis and the approaching vehicle
stopped just before passing Ellefritz’ patrol car. The approaching vehicle then reversed and began to drive
backward away from Ellefritz’ patrol car with the
driver pointing out the window, back toward the dead
end of the street, yelling “they are down there. They
are down there.” Ellefritz looked toward the dead end
of Ellis street and estimated a crowd of approximately

App. 24
25-30 people near the dead end of the street. Ellefritz
ordered the defendant and the driver to keep their
hands up until back up arrived. Once back up arrived,
Defendant got out of the car and said he had been shot.
There was a gunshot wound to Defendant’s upper leg.
The driver and registered owner of the vehicle gave
consent for a search of the car and a loaded black and
gray 9 millimeter handgun was found under the front
passenger seat.
ANALYSIS
Defendant asserts that Ellefritz lacked probable
cause or reasonable suspicion to justify a stop of the
car in which he was a passenger and argues that this
purported Fourth Amendment violation must result in
suppression of the handgun at trial.
Based on the facts and case law, the Court ﬁnds
the stop and subsequent search to be proper. Ofﬁcers
may conduct an investigatory stop of a vehicle if articulable facts support a reasonable suspicion that criminal activity is afoot. Terry v. Ohio, 392 U.S. 1 (1968).
The determination of whether an ofﬁcer had reasonable suspicion is an objective inquiry based on the totality of the circumstances known to the ofﬁcer at the
time of the encounter. United States v. Hicks, 531 F.3d
555, 558 (7th Cir. 2008).
The government argues this case is analogous to
United States v. Burgess, 759 F.3d 708 (7th Cir. 2014).
In Burgess, the district court found that late on a Sunday night (around 10:45 pm) in October 2011, gunshots

App. 25
were ﬁred in a neighborhood on Chicago’s northwest
side. 911 callers reported gunshots in the area. Based
on these reports, ofﬁcers were dispatched to two locations. Additional callers reported shots from a black
car. Ofﬁcers stopped a black car heading north about a
half mile from one of the identiﬁed locations and a mile
from the other location. Just over four minutes had
passed from the initial dispatch. Burgess was a passenger in the black car. Burgess ﬁled a motion to suppress arguing lack of reasonable suspicion. The district
court found that, based on what the ofﬁcers knew from
hearing the dispatches—the car’s color, the close proximity to the report of shots ﬁred both in terms of timing
and location and the seriousness of the reported
crime—reasonable suspicion justiﬁed the stop and denied the motion. Burgess, 759 F.3d at 711.
Burgess appealed, arguing that what the ofﬁcer
knew was not enough for reasonable suspicion. In its
analysis, the Seventh Circuit ﬁrst observed the dangerousness of the situation facing the ofﬁcers and the
public. See United States v. Goodwin, 449 F.3d 766, 799
(2006). Against that backdrop, the ofﬁcers had
knowledge of a car color and street locations and saw
the vehicle within two or three minutes about a mile
from where they could reasonably expect the shooter’s
vehicle to have traveled during the time that had
elapsed. The Seventh Circuit held that all told, the circumstances here—the dangerousness of the crime, the
short lapse of time between the dispatches and the
stop, the stop’s proximity to the reported shots, and the
car’s color—provided ample justiﬁcation for the

App. 26
stopping the car. The court further stated that in such
a situation, it is reasonable for police to act quickly, lest
they lose the only opportunity they may have to solve
a recent violent crime or to interrupt an advancing one.
Burgess, 759 F.3d at 711.
Defendant argues that United States v. Brewer,
561 F.3d 676, 678 (7th Cir. 2009), is more applicable.
However, in Brewer, a stop was made by an ofﬁcer who
had no knowledge that shots had been ﬁred from a car
matching the defendant’s, and without that report the
court found that the case was on the line between reasonable suspicion and pure hunch. The stop was still
upheld as the vehicle was pulled over and stopped only
moments before the ofﬁcers making the stop learned
that the vehicle has been seen at the site of the shooting. Id. at 679.
Here, the Court ﬁnds that this trafﬁc stop was an
objectively reasonable one based on the totality of the
circumstances. Ellefritz was responding to a dispatch
of numerous shots being ﬁred in a speciﬁc area and vehicles leaving the area. Upon his arrival, he was met
by the vehicle Defendant was a passenger in leaving
that exact area. He activated his emergency lights and
initiated a stop of the vehicle. This was within minutes
of being dispatched to the shooting. The totality of the
circumstances here support reasonable suspicion. The
short lapse of time between the dispatch and the stop,
the 911 call of vehicles leaving the area, this vehicle
being the only one Ellefritz saw in close proximity, less
than 300 feet from where the shots were reported to
have come from, the vehicle driving away from the area

App. 27
where shots reportedly originated, and upon seeing the
patrol car stopping and then reversing slightly and
moving away from Ellefritz, and the driver yelling that
“they are still down there,” support the initial stop of
that vehicle, if for no other reason than to inquire if
they were witnesses to the shooting or to learn if they
had been involved in the shooting. See United States v.
Chapman, 954 F.2d 1352, 1357 (7th Cir. 1992) (a suspect’s initial refusal to stop his truck when ofﬁcers signaled for him to pull over reinforced the
reasonableness of the ofﬁcer’s belief that the driver
had committed or was committing a crime). Accordingly, Defendant’s Motion to Suppress Evidence is denied.
CONCLUSION
For the reasons set forth above, Defendant’s Motion (Doc. 20) to Suppress Evidence is DENIED.
Signed on this 27th day of December, 2018.
s/ James E. Shadid
James E. Shadid
Chief United States District Judge

App. 28
United States Court of Appeals
For the Seventh Circuit
Chicago, Illinois 60604
June 25, 2020
DIANE P. WOOD, Chief Circuit Judge
JOEL M. FLAUM, Circuit Judge
KENNETH F. RIPPLE, Circuit Judge
No. 19-2054
UNITED STATES
OF AMERICA,
Plaintiff-Appellee,

Appeal from the United
States District Court for
the Central District of
Illinois.

v.
TERRILL A. RICKMON,
SR.,
Defendant-Appellant.

No. 1:18-cr-10046-JESJEH-1
James E. Shadid,
District Judge.

ORDER
On consideration of the petition for rehearing en
banc, ﬁled on June 4, 2020, Judges Flaum and Ripple
of the original panel having voted to deny panel rehearing, Chief Judge Wood having voted to grant, and
with no judge in active service having requested a vote
for rehearing en banc, the petition for rehearing en
banc is DENIED.

